LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5505 Connecticut Avenue, NW #307
Washington, DC 20015

February 19, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-646: ALAINA ADKINS AND MAXIM HEALTHCARE SERVICES, INC.
MICHAEL COLLENS

V.

JESSE

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on February
19, 2020, I caused service to be made pursuant to Rule 29 on the following counsel for
the Respondent:
RESPONDENT:
Michael T. Stehle, Esq.
Law Office of Michael Stehle, PC
1200 R. Street, Suite B
Anchorage, AK 99501
Mstehle.stehlelaw@gmail.com
907-677-7877

Jeffrey M. Feldman
Summit Law Group
315 5th Avenue South, #1000
Seattle WA 98104
jeff@summitlaw.com
907-229-1620

Susan Orlansky
Reeves Amodio LLC
500 L Street, Suite 300
Anchorage AK 99501
susano@reevesamodio.com
907-222-7117
This service was effected by depositing three copies of a Reply to Opposition to
Petition for a Writ of Certiorari in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 19th day of February 2020.

